Defense Hotline Review         October 11, 2006


         TRICARE Contract Award for
         the Audit of Capital and Direct
         Medical Education Costs
         (Report No. D-2007-6-002)
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Office of Audit
  Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Audit Policy and
  Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas and requests
  can also be mailed to:

                                          OAIG-APO
                            Department of Defense Inspector General
                              400 Army Navy Drive (Room 1015)
                                  Arlington, VA 22202-4704




Acronyms

CDME          Capital and Direct Medical Education
DCAA          Defense Contract Audit Agency
DoD IG        Department of Defense Inspector General
FAR           Federal Acquisition Regulation
J&A           Justification and Approval
PNM           Price Negotiation Memorandum
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                    OCT 1 1 rm6

MEMORANDUM FOR DIRECTOR, TRICARE MANAGEMENT ACTIVITY

SLTBJECT: Review of Hotline Allegations Concerning the TRICARE Contract Award
          for theAudit of Capital and Direct Medical Education Costs
          (Report No. D-2007-6-002)

       We are providing this final report for review and comment. We performed this
review based on a Defense Hotline complaint. We considered management comments in
preparing this final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
TRICARE provided acceptable alternative action plans to Recommendations 1.
through 5. and 7. In accepting the alternative action plans, we request specific
information be provided to us on Recommendation 1. We revised Recommendation 6 in
response to your comments. We request that you provide comments to revised
Recommendation 6., and completion dates for all actions plans by November 5,2006.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only). Copies of the management comments must contain the actual
signature of the authorizing official. We cannot accept the / Signed 1 symbol in place of
the actual signature.

       We appreciate the courtesies extended to the staff. Questions on the review
should be directed to Ms. Meredith Long-Morin at 703-604-8739
(meredith.morin@dodig.mil) or Mrs. Carolyn R. Davis at 703-604-8877




                                   w-4d $ ! & d
(carolyn.davis@dodig.mil). See Appendix C for the report distribution.



                                             Pat cia A. Brannin
                                             ~ s i i s t a nInspector
                                                             t        General
                                              for Audit Policy and Oversight
             Office of the Inspector General of the Department of Defense

Report No. D-2007-6-002                                             October 11, 2006
(Project No. D2005-DIPOAI-0227.000)

       Hotline Complaint Concerning the TRICARE Contract Award
        for the Audit of Capital and Direct Medical Education Costs

                                 Executive Summary

Who Should Read this Report and Why? DoD acquisition officials responsible for
follow-up of Defense Contract Audit Agency contract audit findings, Defense Contract
Audit Agency management, the Under Secretary of Defense (Acquisition Technology
and Logistics), and Director Defense Procurement and Acquisition Policy to whom DoD
acquisition officials report should read this report. The report discusses key Federal
Acquisition Regulation requirements for evaluating unsolicited proposals, and DoD
Directive requirements for dispositioning contract audit findings.

Background. We conducted this review in response to a complaint that the DoD Hotline
received. The Hotline complainant alleged that:

   •    TRICARE awarded a contract to Tichenor and Associates, LLP (an accounting
        firm) for the audit of Capital and Direct Medical Education costs that did not
        comply with the Federal Acquisition Regulation (FAR); and

   •    TRICARE management pressured the contracting officer and other TRICARE
        employees to award the contract knowing that it did not comply with the FAR.

    We also reviewed TRICARE actions taken in response to contract audit reports to
determine if it complied with DoD Directive 7640.2, “Policy for Follow-up on Contract
Audit Reports,” dated February 12, 1988.

Results. We substantiated the first allegation but were unable to substantiate the second.
The Tichenor and Associates, LLP unsolicited proposal and resulting contract award did
not comply with the FAR. Specifically, the results of our review disclosed that:

   •    the TRICARE contract file did not support the FAR 15.603(c)(1) requirements
        that the unsolicited proposal be unique or innovative;

   •    the unsolicited proposal did not include sufficient technical information in order
        for the Government to perform a comprehensive evaluation, as FAR 15.603(c)(4)
        and FAR 15.606-1(a)(4) requires;

   •    TRICARE commenced negotiations without a favorable technical evaluation as
        FAR 15.607(b)(1) requires; and


                                             i
   •   TRICARE did not adequately justify issuing the Tichenor contract as a sole-
       source award under the authority of FAR 6.302.1.

         In addition, we determined that the incentive fee terms did not properly consider
all of the overpayments that the Defense Contract Audit Agency (DCAA) identified,
resulting in Tichenor and Associates, LLP receiving additional fees of up to $4.7 million.
TRICARE also did not adequately explain its October 6, 2005 decision to extend the
contract, considering that the contractor did not demonstrate it could identify larger
Capital and Direct Medical Education overpayments than were identified by DCAA.

        Although we could not substantiate the second allegation, the contracting officer
did not follow established procedure by requesting approval for the contract prior to
addressing the technical evaluator’s concerns or preparing a Justification and Approval.

        Section V, “Other Findings to be Reported,” of this report discusses our review of
TRICARE compliance with DoD Directive 7640.2. TRICARE actions taken on several
contract audit reports did not comply with DoD Directive 7640.2. For example,
TRICARE did not take timely action to recover Capital and Direct Medical Education
payments identified by DCAA, which contributed to Tichenor receiving additional fees
of up to $4.7 million. TRICARE should also modify its performance appraisals of
acquisition personnel to measure their performance in resolving and dispositioning
contract audit reports as DoD Directive 7640.2 requires.

Management Comments and Department of Defense Inspector General (DoD IG)
Response. TRICARE believes that the Tichenor and Associates, LLP contract award
complied with the FAR. However, in response to Recommendations 1. and 2.,
TRICARE stated that the contracting officer will re-evaluate the Tichenor contract to
determine if terminating it for convenience is in the best interests of the Government.
After completing the re-evaluation, we request that TRICARE provide us with a written
justification that fully supports its decision.

        In response to Recommendations 3. and 5., TRICARE stated it will review and
modify its procedures for handling unsolicited proposals and dispositioning contract audit
reports. For Recommendation 4., TRICARE will ensure that future evaluations of
unsolicited proposals are adequately documented and comply with the FAR. For
Recommendation 7., TRICARE stated that it will evaluate all contracting officers on their
effectiveness in resolving and dispositioning contract audits.

       Finally, we revised Recommendation 6. based on TRICARE’s comments. We
request that TRICARE provide comments in response to revised Recommendation 6.,
and completion dates for all planned corrective actions by November 5, 2006.

        See the Findings section of the report for a discussion of management comments
and the Management Comments section for a complete copy of TRICARE’s comments to
a draft of this report.



                                            ii
Table of Contents
Executive Summary                                               i

Background                                                   1

Objective                                                   1

Findings
       Allegation 1: Tichenor Proposal                      2
       Allegation 2: TRICARE Management                     7
       Other Issues to be Reported                          9

Appendixes
      A.     Scope and Methodology                          15
      B.     Untimely Disposition of Contract Audits
             and Inadequate Rationale for Sustained Costs   16
      C.     Report Distribution                            17

Management Comments
      Deputy Director TRICARE Management Activity           18
BACKGROUND
Capital and Direct Medical Education Costs. TRICARE authorizes reimbursement of
certain Capital and Direct Medical Education (CDME) costs to eligible hospitals.
Hospitals eligible for reimbursement of CDME costs include those that are subject to a
diagnostic related group based payment system. TRICARE reimburses CDME costs if a
hospital submits a request for reimbursement along with the associated Medicare cost
report. Medicare cost reports are subject to adjustment based on desk review, audit, or
appeals. Hospitals are required to submit an amended CDME payment request if the
Medicare cost report is adjusted; however, many hospitals fail to submit an amended
request, resulting in uncollected CDME overpayments due to TRICARE.

Defense Contract Audit Agency. The Defense Contract Audit Agency (DCAA)
provides audit and financial advisory services to DoD Components, including TRICARE.
In May 1999, DCAA alerted TRICARE to the possibility that significant CDME
overpayments were not being recovered from hospitals. As agreed to by TRICARE,
DCAA conducted 15 audits of CDME costs between February 2000 and November 2002
(see report listing in Appendix A). DCAA conducted the audits in three phases. Phase 1
audits covered hospitals that received CDME reimbursements and were subjected to a
Medicare cost audit during 1992 through 1997. Phase 2 audits covered remaining
hospitals that received CDME reimbursement during 1992 through 1997. Phase 3 audits
covered hospitals that received Medicare cost report updates for 1996 and 1997 and a
small number of hospitals for the period 1998 through 1999. The DCAA audits
identified approximately $24 million in CDME net overpayments to hospitals.

Tichenor and Associates, LLP. In January 2000, Tichenor and Associates, LLP
(Tichenor), an accounting firm, submitted an unsolicited proposal to TRICARE for the
identification of CDME overpayments. In October 2000, TRICARE rejected the January
2000 proposal because TRICARE concluded that the proposal was neither unique nor
innovative as Federal Acquisition Regulation (FAR) Subpart 15.6, “Unsolicited
Proposals,” requires. Tichenor submitted several revised proposals to TRICARE
throughout 2001. On November 1, 2002, TRICARE awarded Tichenor a 4-year contract
to identify CDME overpayments to hospitals for the period 1992 through 1997, the same
period already covered by DCAA. Under the terms of the contract, Tichenor receives
a 25-percent incentive fee on CDME overpayments actually recovered by TRICARE in
excess of overpayments identified in the DCAA Phase 1 audits. Tichenor receives a
full 25-percent fee on all remaining CDME overpayments not identified in the DCAA
Phase 1 audits, even if the same overpayments were already identified in the DCAA
Phases 2 and 3 audits.

Review Objective. The primary objective was to determine the validity of the Defense
Hotline allegations. Our objective also included an evaluation of compliance with DoD
Directive 7640.2, “Policy for Follow-up on Contract Audit Report,” dated February 12,
1988. See Appendix A for details of our scope and methodology.




                                           1
FINDINGS

Allegation 1. The Tichenor proposal did not comply with certain FAR requirements
for an unsolicited proposal. In addition, TRICARE awarded the contract to
Tichenor without competition in noncompliance with the FAR.

       The allegation was substantiated. The unsolicited proposal and resulting
contract award did not comply with portions of the FAR. The Tichenor proposal
did not include sufficient technical information, and TRICARE did not adequately
support its conclusion that the proposal was unique and innovative. TRICARE also
did not justify issuing the contract as a sole-source award because DCAA and other
contractors may have been able to satisfy the agency’s requirement. In addition, the
incentive fee terms did not properly consider all overpayments previously identified
by DCAA, resulting in additional inappropriate fees being paid to Tichenor of up to
$4.7 million.

Facts and Analysis:

       FAR Unsolicited Proposal Requirements. FAR Subpart 15.6 sets forth policies
and procedures concerning submission, receipt, evaluation, and acceptance or rejection of
unsolicited proposals. According to FAR 15.603(c), a valid unsolicited proposal must—

       •   be innovative and unique;

       •   be independently originated and developed by the offeror;

       •   be prepared without Government supervision, endorsement, direction, or
           direct Government involvement;

       •   include sufficient detail to permit a determination that Government support
           could be worthwhile and the proposed work could benefit the agency’s
           research and development or other mission responsibilities;

       •   not be an advance proposal for a known agency requirement that can be
           acquired by competitive methods; and

       •   not address a previously published agency requirement.

        Furthermore, before the agency begins a comprehensive evaluation,
FAR 15.606-1 requires that the agency perform an initial review of unsolicited proposals
to determine compliance with these and other FAR unsolicited proposal criteria.

         TRICARE Initial Review of Tichenor’s Unsolicited Proposal. The TRICARE
initial review of Tichenor’s final unsolicited proposal dated October 2, 2001, did not
disclose any noncompliances with FAR Subpart 15.6. However, the TRICARE contract
file did not include any documentation to support that determination. At a minimum, the
initial review should have disclosed that the proposal did not comply with FAR 15.603(c)
because it did not contain sufficient technical information. The proposal did not include
any information about Tichenor’s claim that it employs a unique database to collect and
identify CDME overpayments. Tichenor’s refusal to describe the database or provide
access to it prevented TRICARE from determining if the proposal reflected unique
methodologies or could benefit the Agency’s mission responsibilities.

        TRICARE Comprehensive Evaluation of Tichenor’s Unsolicited Proposal.
Based on its favorable initial review, TRICARE initiated a comprehensive evaluation of
the Tichenor proposal in accordance with FAR 15.606-2. The TRICARE Health Benefits
Contract Evaluator performed the evaluation and reported the results to the contracting
officer in a memorandum dated October 16, 2001. The evaluator took exception to
several aspects of the Tichenor proposal based on the evaluation factors listed in
FAR 15.606-2. For example, the evaluator commented that:

       •   the Tichenor proposal did not reflect any unique or innovative methodology;

       •   the Tichenor proposal did not demonstrate any significant technical
           accomplishments;

       •   the proposed approach may be a duplication of previous audits performed by
           DCAA;

       •   the proposed approach may result in inaccurate CDME overpayment
           calculations, a concern also raised by the TRICARE technical consultant,
           Kennell and Associates, in its memorandum dated January 19, 2001; and

       •   information used by Tichenor in calculating CDME overpayments is also
           available to the TRICARE managed care support contractors. According to
           the evaluator, the managed care support contractors should have been
           monitoring CDME overpayments as required by their contracts with
           TRICARE.

The evaluator recommended against accepting the Tichenor proposal unless these and
other issues were resolved. The contracting officer notified Tichenor of the issues in a
letter dated November 20, 2001. The technical evaluator reviewed the contractor’s
response dated December 6, 2001, and determined that the response did not adequately
resolve the issues. Further, no evidence exists in the TRICARE contract file to suggest
that the issues were later resolved before the contract was awarded to Tichenor in
November 2002.

        Authority for Waiving Full and Open Competition. There was no sufficient
basis for waiving full and open competition. To accept an unsolicited proposal,
FAR 15.607, “Criteria for acceptance and negotiation of an unsolicited proposal,”


                                            3
requires that a Justification and Approval (J&A) be prepared based on one of the
authorities for waiving full and open competition provided in FAR Subpart 6.3.
FAR 6.303-2 requires that the J&A contain sufficient facts and rationale to justify the use
of the specific authority cited. As the authority for waiving full and open competition,
TRICARE cited FAR 6.302-1, entitled “Only one responsible source and no other
supplies or services will satisfy agency requirements.” However, the J&A does not
contain any facts or rationale to justify the use of this authority. The J&A simply states
“. . . the proposed contract will allow Tichenor to utilize their proprietary system to
demonstrate a unique capability to perform this service at a level not otherwise currently
available to the government.” TRICARE had no basis for concluding that Tichenor
possessed any unique capabilities for performing the service because Tichenor would not
allow TRICARE to access its proprietary database.

        The J&A also does not provide any facts or rationale for concluding that Tichenor
was the only responsible source for this requirement. Prior to the Tichenor award,
DCAA had already completed its review of CDME overpayments for the period 1992
through 1997 and was therefore a potential source for additional years. In addition, at
least two other contractors had previously submitted unsolicited proposals to TRICARE
for the identification of CDME overpayments, one in 1992 and one in 1997. TRICARE
did not adequately explain why these contractors or DCAA were unable to satisfy the
agency’s CDME overpayment identification requirements.

        Proof of Concept. Both the J&A and contract describe the Tichenor effort as a
“Proof of Concept,” whereby Tichenor would have the opportunity to prove its claim that
it could identify larger overpayments in a more expeditious manner than DCAA. Once
Tichenor provided its initial results of CDME overpayments, the contract required that
TRICARE compare Tichenor’s results to the DCAA Phase 1 results by hospital to
determine whether Tichenor proved its concept.

         In March 2003, 5 months after the Tichenor contract was awarded, TRICARE
compared the overpayments Tichenor identified to those DCAA identified during its
Phase 1 audits. On a hospital by hospital basis, DCAA identified higher recoveries
nearly twice as often as Tichenor. Despite these results, the Tichenor contract remained
in force. Furthermore, the contract was recently modified on October 6, 2005, to add the
identification of 1998 through 2004 overpayments. In granting the modification, the
agency cited Tichenor’s unique capability to perform the identification services using its
proprietary software. TRICARE did not adequately explain its decision to add the
additional years to the contract considering the results of the comparison, which did not
reflect larger overpayments than DCAA.

        Tichenor Incentive Fee Terms. The Tichenor contract provides for an incentive
fee equal to 25 percent of CDME overpayments recovered by TRICARE in excess of the
DCAA Phase 1 audits. Tichenor receives a full 25-percent fee on all remaining CDME
overpayments not identified in the DCAA Phase 1 audits, even if the same overpayments
were identified in the DCAA Phases 2 and 3 audits. This is not consistent with the
incentive fees terms originally described in the J&A, which considered all DCAA



                                             4
overpayments. The J&A states, “The amount paid to Tichenor will not exceed 25% of
the amount identified and collected in excess of what the DCAA audit identified during
the period FY92 through FY97,” which would have included Phases 2 and 3. As a result
of that change in incentive fee terms, we estimated that Tichenor will be paid up to $4.7
million1 in incentive fees for overpayments already identified by DCAA during Phases 2
and 3. We were not able to determine who authorized this change in incentive fee terms.
The contracting officer and other TRICARE employees we interviewed stated that
“someone” in TRICARE upper management had authorized the change, but they could
not recall the person by name.

Management Comments and Department of Defense Inspector General
Response to Finding (Allegation 1)
         TRICARE Comment (FAR Unsolicited Proposal Requirements). TRICARE
believes that the CDME recovery contract awarded to Tichenor complies with the FAR.
TRICARE states that the contracting officer properly determined that Tichenor was the
only responsible source in accordance with FAR Subpart 6.3, which TRICARE’s Chief
of Special Contracts and the Office of General Counsel supported. TRICARE asserts
that the Tichenor proposal was unique, innovative, and meritorious based on Tichenor’s
ability to track amended Medicare cost reports, expedite the audit of Fiscal Years 1992
through 1997, make use of a proprietary database, and provide sufficient documentation
to support the collection of all identified overpayments.

       According to TRICARE, the contracting officer interpreted the Executive
Director’s approval on January 15, 2002 to mean that a positive technical evaluation had
been made. The contracting officer concluded that it was in the best interest to pursue the
contract because Tichenor would receive no funds unless it could identify overpayments
in excess of those identified by DCAA. TRICARE also said that senior management
considered other factors within their purview in approving the contract.

        DoD IG Response (FAR Unsolicited Proposal Requirements). The contract
files we reviewed did not provide an adequate basis for determining that the Tichenor
proposal was unique and innovative. The reason given in the contract files was the
“proprietary database” which had not been reviewed by TRICARE. TRICARE provided
no additional information in its response to support the uniqueness of the database. For
example, we found no documentation of a description of the database or operating
procedures that outlined any unique abilities or a comparison of how it differed from
other sources.

        TRICARE stated that the Tichenor methodology gave it a unique ability to track
amended Medicare cost reports. However, there was no documentation in the contract
files we reviewed that explained how Tichenor tracks the reports, why it benefits the
Government, and how it differs from DCAA who can also track the reports.

1
 Our estimate of $4.7 million in additional incentive fees was calculated by multiplying the 25-percent
Tichenor incentive fee by the $18.9 million identified in the DCAA Phases 2 and 3 audits.


                                                     5
       TRICARE stated that the Tichenor proposal would result in expedited audits for
FYs 1992 through 1997. TRICARE did not provide us with any analysis which
demonstrated that Tichenor could provide audits quicker than others such as DCAA.
There was also no evidence in the contract file to suggest that DCAA timeliness was a
problem, or that TRICARE ever asked DCAA to provide the reports more quickly. It is
unclear why timeliness was an issue because DCAA had already completed its audits of
FYs 1992 through 1997 overpayments before the Tichenor contract was awarded.

        TRICARE also stated that the Tichenor proposal would result in sufficient
documentation to support the collection of all identified overpayments. We found no
evidence in the contract files to support the contention that the Tichenor documentation
was unique and innovative, or that the DCAA documentation was insufficient to support
collection efforts.

        Given that the Executive Director only gave approval to pursue negotiations, we
do not believe it was appropriate for the contracting officer to assume the Executive
Director was declaring an acceptable technical evaluation. As stated in our findings to
Allegation 2, the contracting officer’s description of the technical evaluator’s concerns
communicated to the Executive Director was not sufficient for the Executive Director to
recognize any actual or potential violations with the FAR. Although the contracting
officer stated in his correspondence that the outstanding technical issues could probably
be resolved during the negotiation phase, there was no evidence in the contract file to
suggest they were later resolved. While we agree that senior management can consider
other factors in a decision, those other factors were not documented in the contract file.

       TRICARE Comment (Proof of Concept). According to TRICARE, the
unsolicited proposal involved an offer of proof of concept without any risk or cost to the
Government should the effort not have succeeded in establishing the existence of a
unique and innovative approach. In October 2002, DoD Inspector General (DoD IG)
reviewed the proof of concept solicitation and had no objection to the auditing contract.

       TRICARE states that the maximum additional fees paid to Tichenor for
disregarding the DCAA Phase 2 and Phase 3 were actually $3.8 million, not the
$4.7 million maximum that the DoD IG estimated. TRICARE also notes that it had
conducted an “apples to apples” comparison in May 2006, which suggests that Tichenor
outperformed DCAA by identifying $6.4 million additional overpayments. Therefore,
TRICARE states that the $6.4 million in extra overpayments exceeds the $3.8 million in
additional fees paid to Tichenor.

        DoD IG Response (Proof of Concept). In October 2002, we reviewed the proof
of concept contract to ensure that it complied with applicable DoD audit policies. We did
not review the proof of concept for compliance with the FAR. In addition, we believe
that TRICARE took actions that were contrary to a “proof of concept.” Specifically,
TRICARE paid Tichenor incentive fees for work already performed by DCAA in Phase 2
and Phase 3, and issued an extension for additional years despite the March 2003



                                             6
comparison results showing that the Tichenor methodology did not produce better results
than DCAA. Therefore, TRICARE had no basis for concluding that the Tichenor
methodology was unique or innovative.

        We disagree that the May 2006 analysis demonstrates Tichenor’s ability to
identify more overpayments than DCAA. This after-the-fact comparison does not justify
the TRICARE decision to either award the initial contract in November 2002 or extend
the period of performance in October 2005. The May 2006 analysis is not an “apples to
apples” comparison. Medicare Cost Reports are subject to continuous revisions and
amendments based upon ongoing audits or the resolution of appeals. As a result, the
DCAA overpayments identified in 2000 are not comparable to those Tichenor identified
in 2003. TRICARE prevented DCAA from updating its results for more current
Medicare cost information while TRICARE held negotiations with Tichenor, thus
negating an “apples to apples” comparison. Thus far, the only “apples to apples”
comparison was the March 2003 analysis which showed that DCAA had identified higher
overpayments nearly twice as often as Tichenor. The May 2006 comparison also does
not address the other claimed benefits of the Tichenor methodology, including the claim
that Tichenor could provide faster and better documentation of overpayments.

Allegation 2. TRICARE management pressured the contracting officer and other
TRICARE employees to award the Tichenor contract knowing that it violated the
FAR.

        We were unable to substantiate the allegation. There was high-level
management interest in the proposal as a result of congressional inquiries made on
behalf of Tichenor. Because of that interest, the contracting officer took the unusual
step of requesting approval from the Executive Director of TRICARE in a
memorandum dated January 14, 2002. However, the contracting officer’s
description of the technical evaluator’s concerns in his January 14, 2002,
memorandum was not sufficient for the Executive Director to recognize any actual
or potential violations with the FAR. In addition, the contracting officer did not
receive a favorable technical evaluation or prepare a J&A before requesting final
approval from the Executive Director.

Facts and Analysis

        TRICARE Top Management Involvement. Both before and during its review
of the Tichenor proposal, TRICARE received several inquiries from members of
Congress requesting that TRICARE consider the merits of the Tichenor proposal. As a
result, TRICARE top management, including the Executive Director (second in
command at TRICARE), closely monitored the status of the contracting officer’s review
of the Tichenor proposal. In its written responses to the congressional inquiries,
TRICARE top management appropriately replied that TRICARE would perform a
thorough review of the unsolicited proposal in accordance with the FAR and would
advise the contractor of its outcome.




                                           7
         TRICARE Management Directive dated January 14, 2002. Three months
after the comprehensive technical evaluation was performed, the contracting officer
asked the Executive Director to decide whether to pursue a contract with Tichenor in a
letter dated January 14, 2002. The Director of Acquisition Management and Support,
who is subordinate to the Executive Director, usually approves unsolicited proposals.
However, the contracting officer requested approval from the Executive Director because
of the congressional interest and the Executive Director’s prior involvement. In the
letter, the contracting officer pointed out that the technical evaluator had several
outstanding questions that needed to be resolved before a contract was issued, but he also
commented that the outstanding technical questions could probably be worked out during
the negotiation phase. The letter did not describe the outstanding questions and did not
refer to them as potential noncompliances with the FAR or other regulations. Although
the contracting officer did not explain the technical evaluator’s concerns to the Executive
Director, he did explain them to the Director of Acquisition Management and Support.

        In response to the contracting officer’s letter, the TRICARE Executive Director
wrote, “I direct you to pursue a contract with Tichenor and Associates as it is in the
organization’s best interest.” No explanation was given for concluding that the Tichenor
contract was in the organization’s best interest.

        Requirements for Approving Unsolicited Proposals. TRICARE procedures
indicate that final approval should be granted only after an unsolicited proposal is
accepted and a J&A is prepared. TRICARE Acquisition Manual, Subpart 15.6,
“Unsolicited Proposals,” states in part:

        “If the proposal is accepted, the project manager will prepare a justification
       addressing the evaluation factors contained in FAR 15.606-2. The responsible
       official shall review the justification and initiate additional agency coordination,
       if appropriate . . . If the Competition Advocate concurs with the opinion that the
       unsolicited proposal is unique and meets the definition in FAR 15.601, final
       approval shall be sought as required by FAR 15.607.”

       The contracting officer’s request for the Executive Director’s final approval on
January 14, 2002, occurred before the contracting officer had resolved the technical
evaluator’s concerns and prepared a J&A. The J&A was not prepared until
February 26, 2002.

       Record of January 31, 2002, Meeting. In a record of a meeting on
January 31, 2002, the contracting officer documented that the Executive Director directed
him to pursue a contract with Tichenor and that a J&A had to be prepared and signed
before negotiations could begin.

       Memorandum for the File. In an undated Memorandum for the File, under
TRICARE Tracking Number 2001-0001, the contracting officer documented that he
reported the concerns raised by the technical evaluator to the acting director of
Acquisition Management and Support. According to the memorandum, the Director of



                                                 8
Acquisition Management and Support responded that the proposal was worth pursuing
regardless of the technical evaluator’s concerns.

        Interview with Contracting Officer and Technical Evaluator. We interviewed
both the contracting officer and the technical evaluator (the technical evaluator has since
retired) as part of this review. Both employees said that management made clear to them
that they wanted to pursue the contract with Tichenor. Although both employees at the
time expressed concerns about the contract, the contracting officer said he decided to
proceed with the contract based on management’s direction.

Other Issues To Be Reported
Contract Audit Follow-up. We also performed a review to determine whether actions
TRICARE took in response to contract audit reports complied with DoD
Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,” dated February 12,
1988. The directive establishes DoD policies, responsibilities, reporting requirements,
and follow-up procedures for reportable2 contract audit reports. DoD Directive 7640.2
requires that Secretaries of the Military Departments and Directors of Defense agencies
maintain adequate follow-up systems for the proper and timely resolution and disposition
of contract audit reports. Contract audit reports should be resolved3 within 6 months and
dispositioned4 within 12 months of report issuance. DoD Directive 7640.2 also requires
that DoD Components submit semiannual status reports on reportable contract audits to
the DoD IG for the 6-month periods ending March 31 and September 30 of each year.
DoD IG summarizes the semiannual status reports for DoD Components, which is
included in the Inspector General’s Semiannual Report to Congress, in accordance with
the Inspector General Act of 1978, as amended.

Issue One: Untimely Disposition of DCAA Audit Reports. TRICARE contracting
officials did not disposition 11 of the 16 audits we reviewed within 12 months of report
issuance as DoD Directive 7640.2 requires. The results are summarized below and
detailed in Appendix B.

                                       Number of               Timely             Untimely
                                     Audits Reviewed        Dispositioned       Dispositioned
              CDME Audits                 14                     4                   10
              Other Audits                  2                    1                    1
                      Total               16                     5                   11



2
 Reportable audits generally include all contract audits except those involving future or projected costs,
such as audits of pre-award and forward pricing rate proposals.
3
 Resolution of an audit is achieved when the contracting officer determines a course of action, which is
documented and approved in accordance with agency policy.
4
 Generally, disposition of an audit is achieved when the contracting officer negotiates a settlement, the
contracting officer issues a final decision pursuant to the Disputes Clause, or a court renders a final
decision on appeal.


                                                      9
        CDME Audits. The 10 CDME audits that were untimely dispositioned include
one from Phase 1, which questioned $437,000 and nine from Phases 2 and 3, which
questioned $18.9 million. The disposition dates for the audits exceeded the 12-month
requirement by an average of 21 months, and the contract file did not include sufficient
justification to warrant such a delay. While the audits were still open (not dispositioned),
TRICARE explained in its semiannual report to Congress that “Disposition [is] pending
analysis of recoupments demonstration contract with Tichenor and Associates.” The
explanation does not justify the Agency’s decision to delay recovering the $18.9 million
in CDME overpayments reported in the DCAA Phases 2 and 3 audits, since the purpose
of the “proof of concept” was to determine if Tichenor could identify larger
operpayments than DCAA. Furthermore, 6 months before awarding the Tichenor
contract, TRICARE, without explanation, discontinued its efforts to recover the CDME
overpayments identified by DCAA. TRICARE should have continued its recovery
efforts while the Tichenor proposal was under consideration. Had TRICARE acted
promptly, the agency may have saved up to $4.7 million in incentive fees paid to
Tichenor (25-percent fee times $18.9 million Phases 2 and 3 overpayments).

       Other Audits. Of the two other audits we reviewed, one (DCAA Report
No. 6171-2003L17900003) exceeded the 12-month disposition requirement by 1 month.
However, the TRICARE contract file included sufficient documentation to justify the
delay.

Issue Two: Inadequate Rationale for Disposition of Questioned Costs. In 15 of 16
cases, the contracting officer did not maintain adequate documentation to support
disposition of questioned costs reported by DCAA (see listing by audit in Appendix B).
TRICARE Acquisition Practice No. 15-05, Paragraph 5.4, requires that the contracting
officer document the rationale for dispositioning the DCAA questioned costs. Properly
documenting the contracting officer’s rationale helps ensure that the auditor’s findings
are appropriately considered and the Government’s interests are fully protected.

        DCAA CDME Overpayment Audits. For all 14 reportable CDME audits we
reviewed, TRICARE did not maintain adequate documentation to support the questioned
costs reported as sustained5 in the TRICARE semiannual report to Congress.

        In 4 of 14 cases, TRICARE reported that a portion (averaging 27 percent) of the
DCAA questioned costs was sustained. The TRICARE semiannual report to Congress
dated September 30, 2001, TRICARE simply stated “sustained totals reflect adjustments
for actions referred to DoJ [Department of Justice] and those past debt collection time
limitations.” However, no documentation was in the TRICARE contract file that
explained how the adjustments were determined, or why 73 percent of the questioned
costs were not sustained.

       In the remaining 10 cases, TRICARE reported that none of the questioned costs
were sustained. All but one relate to the DCAA CDME audits performed in Phases 2

5
  Sustained questioned costs represent the portion of costs questioned by the auditor that are upheld as a
result of agreement by the contractor or final decision by the contracting officer.


                                                     10
and 3. TRICARE did not document why none of the questioned costs totaling
$19.3 million was sustained.

        Other DCAA Audits. For one of two other audits we reviewed (DCAA Report
No. 6171-2003L17900003), the sustained costs reported in the TRICARE semiannual
report to Congress dated September 30, 2004, was not consistent with the contracting
officer’s disposition action described in the price negotiation memorandum (PNM).
Although the TRICARE semiannual report to Congress reported that none of the $9.8
million questioned costs were sustained, the PNM indicates that the contracting officer
partially agreed with the DCAA audit report. We were not able to determine how much
of the questioned costs were agreed to and sustained by the contracting officer because
the PNM does not contain this information. Although we do not take exception to the
negotiation results in this case, the contracting officer should have documented the
sustained questioned cost amount in the PNM and accurately reported this amount in the
TRICARE semiannual report to Congress.

Issue Three: Evaluations not Impacted for Contract Audit Follow-up. Paragraph
5.2.4 of DoD Directive 7640.2 specifies that the Directors of DoD agencies must “Ensure
that performance appraisals of appropriate acquisition officials reflect their effectiveness
in resolving and dispositioning audit findings and recommendations in a timely manner,
while fully protecting the Government’s interest.” We reviewed performance plans and
appraisals for three TRICARE employees, including one senior contract specialist and
two price analysts, and determined that none had comments addressing the employee’s
ability to timely and effectively resolve and disposition contract audit findings and
recommendations.

        The TRICARE performance appraisals for acquisition personnel do not comply
with DoD Directive 7640.2. The contract audit follow-up requirements specified in the
directive should be included in all appropriate acquisition officials’ performance
appraisal to emphasize the importance of the DoD Directive 7640.2 requirements and to
recognize those individuals who are effective in timely and appropriately resolving and
dispositioning audit findings and recommendations.

Management Comments and DoD IG Response (Other Issues to be
Reported)
        TRICARE Comments. TRICARE maintains that the contract file had adequate
rationale for dispositioning the questioned costs. TRICARE identified the primary reason
for the delay was the review and evaluation process of the Tichenor unsolicited proposal.
TRICARE contends that it was a better business practice to wait until they had a more
reasonable expectation that, using Tichenor’s concept, additional and more complete
overpayments would be discovered before they attempted recoupment actions from the
hospitals.

       DoD IG Response. We disagree that the TRICARE delay of recovery actions
was justified based on its review of the Tichenor proposal and its expectation of


                                            11
additional and more complete overpayments. Considering the time value of money, we
do not agree that it was a better business practice to suspend recovery of the DCAA
identified overpayments pending receipt of the Tichenor identified overpayments. In
addition, we are not aware of any circumstance that prevented TRICARE from promptly
collecting the overpayments identified by DCAA, and later collecting any additional
overpayments identified by Tichenor.

Recommendations, Management Comments, and DoD IG Response
1. We recommend that the TRICARE contracting officer for the Tichenor contract
initiate a termination for convenience on the portion of the contract covering
identification of 1998 through 2004 Capital and Direct Medical Education overpayments.

        TRICARE Comments. The TRICARE contracting officer will consider the
DoD IG concerns and reevaluate the pros and cons of available options before
determining whether terminating the Tichenor contract for convenience is in the best
interest of the Government. TRICARE believes that millions of dollars remain to be
collected in Capital and Direct Medical Education overpayments. Tichenor represents
only one of several methods for documenting overpayments of uncollected medical
funds.

        DoD IG Response. We request that TRICARE provide us with a completion date
for re-evaluating available options. In addition to addressing our concerns, we request
that TRICARE provide us with a written justification which fully supports its
determination. The justification should include data and analysis which demonstrates
that the use of Tichenor has resulted in benefits to the Government which cannot be
obtained from other sources.

2. We recommend that the TRICARE contracting officer for the Tichenor contract
satisfy the requirement for identifying 1998 through 2004 Capital and Direct Medical
Education overpayments by either:

       a. Requesting that the Defense Contract Audit Agency perform the work or

      b. Issuing the requirement under a solicitation that provides for full and open
competition.

       TRICARE Comments. TRICARE acknowledges that Tichenor is only one of
the sources available to provide the service. TRICARE states that if the TRICARE
contracting officer determines that it is in the best interests of the government to
terminate the Tichenor contract for convenience, appropriate action will be initiated.

     DoD IG Response. Given the response to Recommendation 1, the TRICARE
comments are generally responsive.




                                           12
3. We recommend that the TRICARE Director of Acquisition Management and Support
implement the controls necessary to ensure that future unsolicited proposals received by
the agency are processed and documented in accordance with Federal Acquisition
Regulation Subpart 15.6.

        TRICARE Comments. TRICARE will conduct a thorough review of current
policies and procedures regarding the handling of unsolicited proposals.

       DoD IG Response. The TRICARE response meets the intent of our
recommendation. We request that TRICARE provide a date for completing the review
and providing the results to the DoD IG.

4. Before requesting final approval of an unsolicited proposal, we recommend that
contracting officers be required to sign a statement affirming that the requirements for
accepting and negotiating an unsolicited proposal have been met, including the receipt of
a favorable technical evaluation and the preparation of a Justification and Approval.

       TRICARE Comments. As part of its review of current policies and procedures,
TRICARE will ensure the contracting officer’s evaluation of unsolicited proposals will
be formally documented and included in the file. Further, TRICARE will ensure all
requirements for accepting and negotiating an unsolicited proposal are met and to use
such documentation to support the contracting officer’s preparation and certification of a
J&A.

       DoD IG Response. The TRICARE response meets the intent of our
recommendation. We request that TRICARE provide us with a completion date for
reviewing its policies and procedures and identify the quality assurance process it will
implement for complying with the FAR unsolicited proposal requirements.

5. We recommend that the Director of Acquisition Management and Support revise
TRICARE Acquisition Practice No. 15-05, entitled “Contract Audit Follow-up,” to
require that contracting officers document the justification for exceeding either
the 6-month requirement for resolution or 12-month requirement for disposition
established by DoD Directive 7640.2.

        TRICARE Comments. TRICARE understands the DoD IG concerns regarding
the disposition of audits and believes its contracting officers are aware of the
responsibilities to resolve and disposition audits in accordance with DoD
Directive 7640.2. TRICARE is modifying its procedures to clarify the DoD
Directive 7640.2 requirements.

       DoD IG Response. The TRICARE response meets the intent of our
recommendation. We request that TRICARE provide us with a completion date for
modifying its procedures and providing the results to the DoD IG. In addition, we
request that TRICARE identify the quality assurance process it will implement for timely




                                            13
resolving and dispositioning contract audits, and for justifying those instances when the
contracting officer must exceed the DoD Directive 7640.2 timeframes.

6. We recommend that the TRICARE Director of Acquisition Management and Support
implement appropriate controls for ensuring compliance with TRICARE Acquisition
Practice No. 15-05, Paragraph 5.4, which requires that the contracting officer document
the rationale for dispositioning the Defense Contract Audit Agency questioned costs. At
a minimum, we recommend that TRICARE implement a process to test the adequacy of
documentation supporting the disposition of contract audit reports before the contracting
officer reports them as dispositioned in the TRICARE semiannual report to Congress.

        TRICARE Comments. TRICARE stated that the contracting officer adequately
identified and documented the contract file with rationale for dispositioning the audit
reports. Further, TRICARE believes that a requirement for supervisory review of a
contracting officer’s disposition decision is contrary to FAR 1.602-2 and would subrogate
the contracting officer‘s independence.

        DoD IG Response. The TRICARE response suggests there is no need for checks
and balances of contracting officer work performance. OMB Circular A-50 and DoD
Directive 7640.2 require management oversight of the contract audit follow-up function.
For example, OMB Circular A-50 requires that agency management officials designate a
top management official who will oversee audit follow-up, including resolution and
corrective action. Where management officials disagree with an audit recommendation,
the matter must be resolved by the follow-up official. Each agency must promptly
resolve and implement audit findings and recommendations and provide for a complete
record of actions taken. Therefore, we do not believe that supervisory review of contract
audit follow-up actions would subrogate the contracting officer’s independence.
However, based on the concerns expressed by TRICARE, we modified our
recommendation and request that comments on the revised recommendation be provided
by November 5, 2006.

7. In accordance with Paragraph 5.2.4 of DoD Directive 7640.2, we recommend that the
Deputy Chief of TRICARE Acquisitions revise the performance appraisals of appropriate
acquisition officials to measure their performance in resolving and dispositioning contract
audit reports.

        TRICARE Comments. TRICARE claims that listing every responsibility in a
performance standard is not feasible. All contracting officers and pricing personnel have
been instructed on the importance of audit follow-up and documentation requirements.
However, TRICARE will evaluate all contracting officers on their effectiveness in timely
resolving and dispositioning reportable audit findings.

       DoD IG Response. The response meets the intent of our recommendation.
However, we are concerned that without a specific reference in the performance plans,
contracting officers, managers and supervisors will not comply with the requirements of
DoD Directive 7640.2.



                                            14
Appendix A. Scope and Methodology
        We evaluated records maintained by TRICARE, Aurora, Colorado to determine
the validity of the allegations. We also interviewed current and former TRICARE
managers and employees at Aurora and the Chief of Health Plan Operations at the Falls
Church, Virginia headquarters. Specifically, we

       •    determined the applicable standards, public law, DoD regulations,
            directives, and instructions;

       •    reviewed the contract files related to the Tichenor & Associates contract
            award, prepared in both hard copy and electronic format;

       •    interviewed the TRICARE staff and managers and DCAA employees
            having direct involvement with the Tichenor contract award and the
            Contract Audit Follow-up system;

       •    obtained supporting documentation from the DCAA Financial Liaison
            Auditor assigned to the TRICARE Aurora, Colorado facility; and

       •    reviewed mathematical calculations prepared by TRICARE Aurora in
            support of the Tichenor contract award.

        We also evaluated the actions taken by TRICARE to timely and effectively
disposition 16 reportable DCAA audit reports, including 14 dispositioned DCAA audits
of CDME overpayments and 2 other dispositioned DCAA audits. (See report listing in
Appendix B.)

       We performed the review from June 2005 through June 2006.




                                          15
Appendix B. Untimely Disposition of Contract Audits and Inadequate
            Rationale for Sustained Costs
                                                    DCAA                             Exceeds 12-Month                    Rational For
                 DCAA Report Number    Report      Questioned          Disposition      Disposition      Reported as    Sustained Costs
                                        Date         Cost                 Date        Requirement By      Sustained        on File?
CDME Audits:
   Phase 1       6311-2000L17900006   11/29/2000    $ 1,028,872        7/27/2001            --            $ 224,043           No
   Phase 1       6311-2000L17900007   1/12/2001       1,180,796        8/27/2001            --               350,962          No
   Phase 1       6311-2000L17900005    6/5/2001       1,435,463        6/05/2001            --               337,198          No
   Phase 1       6311-2000L17900003    1/8/2001         436,672        9/30/2004        32 months                  0          No
   Phase 1       6311-2000L17900004   12/21/2000      1,204,710        8/06/2001            --               398,155          No
 Phase 1 Total                                     $ 5,286,513                                            $1,310,358
   Phase 2       6311-2001L17900006   6/14/2001    $ 4,914,983         9/30/2004        27 months         $        0          No
   Phase 2       6311-2001L17900009   6/20/2001       2,212,611        9/30/2004        27 months                  0          No
   Phase 2       6311-2001L17900004   6/12/2001       6,148,700        9/30/2004        27 months                  0          No
   Phase 2       6311-2001L17900005   6/20/2001         283,133        9/30/2004        27 months                  0          No
   Phase 2       6311-2001L17900007   6/20/2001       3,094,015        9/30/2004        27 months                  0          No
 Phase 2 Total                                     $16,653,442                                            $        0
   Phase 3       6171-2002A17900005   9/24/2002    $ 343,311           9/30/2004        12 months                  0          No
   Phase 3       6171-2002A17900003   10/21/2002        386,421        9/30/2004        11 months                  0          No
   Phase 3       6171-2002A17900004   9/30/2002         886,417        9/30/2004        12 months                  0          No
   Phase 3       6171-2002L17900003   9/25/2002          20,010        -----------Not Reportable Under DoD Directive 7640.2-----------
   Phase 3       6171-2002A17900001   9/27/2002         594,062        9/30/2004        12 months          $      0           No
 Phase 3 Total                                     $ 2,230,221                                                    0
 Total CDME                                                                                                $      0
                                                   $24,170,176
    Audits
Other Audits:
     N/A         1621-2003T17900008   7/22/2003        256,649         6/24/2004            --             $ 256,649         Yes
     N/A         6171-2003L17900003   4/11/2003      9,833,263         5/14/2004         1 month                   0         No




                                                                  16
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense for Personnel and Readiness

Other Defense Organizations
Director, TRICARE Management Activity
   Acting Chief of Healthcare Plan Operations
   Director, Acquisition Management and Support Division
Director, Defense Contract Audit Agency
   Branch Manager, Defense Contract Audit Agency Chesapeake Bay Branch Office
   Financial Liaison Auditor, TRICARE Management Activity (Contracts), Aurora

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Chief, Office of Naval Research
Audit Liaison, Assistant Secretary of the Navy
  Financial Management and Comptroller
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the
  Census




                                                 17
Deputy Director TRICARE Management
Activity Comments    .




                   18
Deputy Director TRICARE Management
Activity Comments    .




                   19
Deputy Director TRICARE Management
Activity Comments    .




                   20
Deputy Director TRICARE Management
Activity Comments    .




                   21
Deputy Director TRICARE Management
Activity Comments    .

                                     Final Report
                                     Ref.




                                     clarified




                   22
Deputy Director TRICARE Management
Activity Comments    .




                   23
                Deputy Director TRICARE Management
                Activity Comments    .

Final Report                                         Final
Ref.                                                 Report Ref.




Note:                                                revised
TRICARE
revised the
$10.2
million to
$6.4 million.




                                   24
Deputy Director TRICARE Management
Activity Comments    .




                   25
Deputy Director TRICARE Management
Activity Comments    .




                   26
Deputy Director TRICARE Management
Activity Comments    .




                   27
            Deputy Director TRICARE Management
            Activity Comments    .




Revised                                          revised
Recommend
ation 6.
based on
TRICARE
comments




                               28
Deputy Director TRICARE Management
Activity Comments    .




                                     clarified




                   29
Deputy Director TRICARE Management
Activity Comments    .




                   30
